No. 20-472

 

IN THE

Supreme Court of the Anited States

HOLLYFRONTIER CHEYENNE REFINING, LLC, ET AL.,
PETITIONERS,

Vv.
RENEWABLE FUELS ASSOCIATION, ET AL.

ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

BRIEF FOR NATIONAL BIODIESEL BOARD
AS AMICUS CURIAE IN SUPPORT OF RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,508 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 31, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
